Your Rights and Our Responsibilities After We Receive Your
Written Notice. We must acknowledge your letter within 30
days, unless we have corrected the error by then. Within 90 days,
we must either correct the error or explain why we believe the
statement was correct. After we receive your letter, we cannot try
to collect any amount you question, or report you as delinquent.
We can continue to bill you for the amount you question, including
FINANCE CHARGES and we can apply any unpaid amount
against your credit limit. You do not have to pay any questioned
amount while we are investigating, but you are still obligated to pay
the parts of your statement that are not in question.
If we find that we made a mistake on your statement, you will not
have to pay any FINANCE CHARGES related to any questioned
amount. If we didn’t make a mistake, you may have to pay
FINANCE CHARGES, and you will have to make up any missed
payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report
you as delinquent. However, if our explanation does not satisfy
you and you write to us within 10 days telling us that you still
refuse to pay, we must tell anyone we report you to that you have
a question about your statement. And, we must tell you the name
of anyone we reported you to. We must tell anyone we report you
to that the matter has been settled between us when it finally is.
If we don’t follow these rules, we can’t collect the first $50.00 of the
questioned amount, even if your statement was correct.
Special Rule for Credit Card Purchases. If you have a problem
with the quality of property or services that you purchased with a
credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining
amount due on the property or services. There are two limitations
on this right: (a) You must have made the purchase in your home
state, or if not within your home state, within 100 miles of your
current mailing address; and (b) The purchase price must have
been more than $50.00. These limitations do not apply if we own
or operate the merchant, or mailed you the advertisement for the
property or services.
CUSTOMER SERVICE: 1-800-442-4757 – 24 hours a day/7
days a week. (Please have your Account information available.)
OPTIONAL GROUP CREDIT INSURANCE LIMITATIONS,
EXCLUSIONS, AND COSTS —
SUMMARY OF INSURANCE COVERAGES
Important information on this program’s limitations,
exclusions and costs: Upon acceptance of your enrollment, you
will receive your certificates. Eligibility, restrictions and exclusions
vary by coverage and state. Read your certificates carefully for
full details. You are free to cancel at any time. Premium rates are
subject to change. Rates disclosed are accurate as of the printing
date of this disclosure. The creditor has a financial interest in the
sale of this insurance. The underwriters referenced below reserve
the right to modify the terms and conditions of the insurance
certificates upon written notice and subject to state regulations.
Life Benefits: If you or your joint cardmember die (to be eligible
for life insurance, joint cardmember must be spouse or business
partner in GA, NM, & TX; if no joint cardmember, then spouse),
Chargegard will pay the outstanding balance as of the date of
death, up to the master policy maximum of $10,000. Suicide is
excluded except in ME, MD, and MO. Life converts to accidental
death coverage in HI, IN and VT at age 65; in IA at age 66. Joint
life coverage not available in CA.

Disability/Unemployment Benefits(applies only to you, the
primary cardmember): If you become disabled or involuntarily
unemployed, Chargeguard will make your scheduled minimum
monthly payment, subject to the master policy maximum of $500 a
month, not to exceed $10,000.
General Provisions: You are eligible for this coverage if you are
employed full time in a non-seasonal occupation. In the State of
Texas, if you are self-employed or an independent contractor you
are not eligible for the Unemployment coverage. Unemployment and
Disability benefits begin after 30 consecutive days of Unemployment
or Disability and are retroactive to the first day of loss. Benefits are
based on the outstanding balance as of the date of loss and will
continue until your balance is paid off, you return to work, or you
reach the maximum limits of the master policy, whichever occurs
first. Only Life benefits are available to co-accountholder (spouse).
Benefits are not payable on items purchased after you or your
co-accountholder die or after you become disabled or unemployed.
You may enroll for this coverage if you are under age 70. Coverage
ends at age 71. The cost for this coverage is a combined rate of
.427 per $100 of the monthly outstanding indebtedness. This rate is
comprised of .057 for Life, .170 for Disability and .200 for Involuntary
Unemployment. Coverages are underwritten by American Bankers
Life Assurance Company of Florida and American Bankers Ins.
Company of Florida, 11222 Quail Roost Drive, Miami FL 33157. The
Texas certificate number for Life and Disability is AC3181CB-0592
(3.53 R.A.) and Unemployment is AD9139CQ-0791 and B2754EQ-1089.
The administrative offices for this program are located in Fort Worth, TX.
There is a Returned Check Fee of $25.00.
The information about the costs of the Card described in this
application is accurate as of 08/01/05. This information may have
changed after that date. To find out what may have changed, call
1-713-222-1244 or write to Space City CU at 3101 Harrisburg Blvd.,
Houston, TX, 77003.
California residents: Applicants: 1) may, after credit approval, use the
credit card account up to its credit limit; 2) may be liable for amounts
extended under the plan to any joint applicant. As required by law,
you are hereby notified that a negative credit report reflecting on your
credit record may be submitted to a credit reporting agency if you fail
to fulfill the terms of your credit obligations.
Ohio residents: Ohio anti-discrimination laws require creditors to
make credit equally available to all credit worthy customers and
that credit reporting agencies maintain separate credit histories
on individuals upon request. The Ohio Civil Rights Commission
administers compliance with this law.
New York and Vermont residents: At any time, we may obtain your credit
reports, for any legitimate purpose associated with the account or the
application or request for an account, including but not limited to reviewing,
modifying, renewing and collecting on your account. On your request, you
will be informed if such a report was ordered. If so, you will be given
the name and address of the consumer reporting agency furnishing
the report.
Married Wisconsin residents: No provision of any marital property
agreement, unilateral statement, or court order applying to marital
property will adversely affect a creditor’s interests unless prior to
the time credit is granted, the creditor is furnished with a copy of the
agreement, statement or court order, or has actual knowledge of the
provision.

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

12.90% When you open your

APR for Balance Transfers

12.90% When you open your

account for MasterCard Classic
9.90% When you open your
account for MasterCard Platinum
account for MasterCard Classic
9.90% When you open your
account for MasterCard Platinum

APR for Cash Advances

12.90% When you open your
account for MasterCard Classic
9.90% When you open your
account for MasterCard Platinum

Penalty APR and When it
Applies

None

How to Avoid Paying Interest

Your due date is at least 25 days
after the close of each billing cycle.
We do not charge you interest on
purchases if you pay your entire
balance by the due date each
month.

Minimum Charge

None

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to
consider when applying for or
using a credit card, visit the Web
site of the Consumer Financial
Protection Bureau at http://www.
consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
Balance Transfer

None

Cash Advance

None

Foreign Transaction

1% of transaction amount

Penalty Fees
Late Payment

$20.00

Over-the-Credit Limit

None

Returned Payment
Rush Order Fee

$25.00
$27.50

How We Will Calculate Your Balance. We use a method called
“average daily balance (including new purchases).” See your account
Agreement for more details.
Billing Rights. Reference to the account agreement for more details
on billing-error rights.

G14294

SPACE CITY CREDIT UNION
3101 Harrisburg Blvd. • Houston, TX, 77003
Harris County • 713-222-1244 • 800-762-3543
CREDIT CARD AGREEMENT AND
DISCLOSURE STATEMENT FOR
YOUR MASTERCARD® ACCOUNT
Notice: Read and retain this copy of your Agreement and Truth in
Lending Disclosure for future reference.
TERMS USED IN THIS AGREEMENT: This Agreement
and Disclosure Statement covers your MasterCard® Account
(“Account”) shown above. In this Agreement, the words “you”
and “your” mean any person who signs this Agreement or uses
the Card. “We” “our” and “us” mean the credit union named
above. The “Card” means any credit card issued to you or those
designated by you under the terms of this Agreement. “Use of
the Card” means any procedure used by you, or someone
authorized by you, to make a purchase or an advance whether
or not the purchase or advance is evidenced by a signed written
document. “Unauthorized use” means the use of your Card by
a person, other than you, who does not have actual, implied,
or apparent authority for such use, and from which you receive
no benefit. In this Agreement, any plural terms shall be deemed
singular and any singular terms shall be deemed plural when
context and construction so require.
EXTENSION OF CREDIT: If your application is approved, we
may, at our discretion, establish an Account in your name and
cause one or more Cards to be issued to you or those designated
by you. In such event, you authorize us to pay for your Account
all items reflecting credit purchases, balance transfers, and cash
advances obtained through use of the Card.
JOINT APPLICANT LIABILITY: If this Agreement is executed by
more than one person, each of you shall be jointly and individually
liable to us for all charges made to the Account, including
applicable fees. In addition, you agree that each of you designates
the other as agent for the purpose of making purchases extended
under this Agreement and each use of your Account shall be an
extension of credit to all. Notice to one of you shall constitute
notice to all. Any joint cardholder may remove him/herself from
responsibility for future purchases at any time by notifying us in
writing. However, removal from the Account does not release you
from any liability already incurred.
CONVENIENCE CHECKS: We may, at our discretion, issue
checks to you which may be used for any purpose other than
making a payment for credit to your Account. By signing such
checks, you authorize us to pay the item for the amount indicated
and post such amount as a cash advance to your Account. We
do not have to pay any item which would cause the outstanding
balance in your Account to exceed your credit limit. Charges that
apply in connection with the use of Convenience Checks are as
follows: Copy of Paid Check $10.00; Stop Payment on Check
$25.00; Non-Sufficient Funds Check (NSF) $25.00. Fees will be
assessed at the time they are incurred.
OTHERS USING YOUR ACCOUNT: If you allow anyone else to
use your Card, you will be liable for all credit extended to such
persons. You promise to pay for all purchases, balance transfers,
and cash advances made by anyone whom you authorize to use
your Card, whether or not you notify us that he or she will be using
it. If someone else is authorized to use your Card and you want
to end that person’s privilege, you must notify us in writing, and if

he or she has a Card, you must return the Card with your written
notice for it to be effective.
CREDIT LIMITS: You promise that payments we make for your
Account resulting from use of the Card will at no time cause the
outstanding balance of your Account to exceed your credit limit as
established by us or as adjusted from time to time at our discretion.
PROMISE TO PAY: You promise to pay us in U.S. dollars for (a)
all purchases, cash advances, and balance transfers made by you
or anyone whom you authorize to use the Card or Account; (b)
FINANCE CHARGES and other charges or fees; (c) collection
costs and attorney’s fees as permitted by applicable law, and
any costs incurred in the recovery of the Card; and (d) credit in
excess of your credit limit that we may extend to you. At the
end of each monthly billing cycle for which you have a balance
on your Account, you will be furnished with a periodic statement
showing (i) the “Previous Balance” (the outstanding balance in the
Account at the beginning of the billing cycle), (ii) the amount of
all cash advances, purchases, balance transfers, Late Charges,
Annual Fees, FINANCE CHARGES, and other charges or fees
posted to your Account during the billing cycle, (iii) the amount of
all payments and credits posted to your Account during the billing
cycle, and (iv) the “New Balance” which is the sum of (i) and (ii)
minus (iii).
You agree to pay on or before the “Payment Due Date” shown
on the monthly periodic statement the entire New Balance or a
Minimum Payment equal to an amount which is at least 2% of the
New Balance or $18.00, whichever is greater, plus any amount
in excess of the credit limit established by us and any past due
minimum payments. If the New Balance is $18.00 or less, you
agree to pay it in full. You may make extra payments in advance
of the due date without a penalty, and you may repay any funds
advanced, credit extended, or amount outstanding at any time
without a penalty for early payment. Regardless of the amount of
any extra payment during a given month, a monthly payment will be
required the following month if a balance remains in your Account.
COST OF CREDIT: You will pay a FINANCE CHARGE for all
advances made against your MasterCard Classic account at the
periodic rate of .035342% per day, which has a corresponding
ANNUAL PERCENTAGE RATE of 12.9%. All advances made
against your MasterCard Platinum account at the periodic rate
of .027123% per day, which has a corresponding ANNUAL
PERCENTAGE RATE of 9.9%. FINANCE CHARGES for cash
advances and balance transfers begin to accrue on the date of
the advance. New purchases will not incur a FINANCE CHARGE
on the date they are posted to your Account if you have paid the
Account in full by the Payment Due Date shown on your previous
monthly statement, or if there was no previous balance. The
Payment Due Date is not less than 25 days from the billing cycle
closing date shown on your statement
The FINANCE CHARGE is figured by applying the periodic rate to
the “Balance Subject to FINANCE CHARGE” which is the “Average
Daily Balance” of your Account, including current transactions. The
Average Daily Balance is arrived at by taking the beginning balance
of your Account each day, adding in any new cash advances, and
unless you pay your Account in full by the Payment Due Date
shown on the previous monthly statement or there is no previous
balance, adding in new purchases, and subtracting any payments
or credits and unpaid FINANCE CHARGE. This gives us the
daily balance. The daily balances for the billing cycle are then
added together and divided by the number of days in the billing
cycle. The result is the Average Daily Balance. The FINANCE

CHARGE is determined by multiplying the Average Daily Balance by
the number of days in the billing cycle and applying the periodic rate
to the product.
LIABILITY FOR UNAUTHORIZED USE: You may be liable for
the unauthorized use of your Card. You will not be liable for any
unauthorized use of your Card if you notify us orally or in writing at
the Credit Card Center, PO Box 815909, Dallas, TX 75381-5909,
telephone number 1-800-442-4757, of the loss, theft, or possible
unauthorized use and you meet the following conditions: (1) you have
exercised reasonable care with the Card; (2) you have not reported
two or more incidents of unauthorized Card use within the previous 12
months; and (3) you have maintained your Account in good standing.
The foregoing liability limitation does not apply to ATM cash advance
transactions. In any case, your maximum liability for unauthorized
use of the Card will not exceed $50 and you will not be liable for any
unauthorized use that occurs after you notify us (or our designee) at
the address or telephone number above.
CREDITING OF PAYMENTS: We do not charge for payments
you make by standard mail service or other reasonable means. If
we charge a fee for any expedited payment service we offer, that
fee will be disclosed to you at the time you request the service. All
payments made on your Account at the address designated for
payment on the monthly periodic statement will be credited to
your Account on the date of receipt. If the date of receipt is not a
business day, your payment will be credited on the first business
day following receipt. All payments on your Account will be applied
first to collection costs, then to any FINANCE CHARGE and other
fees due, and then to the unpaid principal balance. Interest paid or
agreed to be paid shall not exceed the maximum amount permissible
under applicable law, and in any contingency whatsoever, if we shall
receive anything of value deemed interest under applicable law which
would exceed the maximum amount of interest permissible under
applicable law, the excessive interest shall be applied to the reduction
of the unpaid principal amount or refunded to you.
LATE CHARGE: If a payment is 11 days or more past due, you will
be charged a Late Charge of $20.00.
RETURNED CHECK FEE: We will charge you a Returned Check
Fee of $25.00 each time you pay us with a check that is returned
unpaid. We will charge you this fee the first time any payment is
returned unpaid, even if it is paid upon resubmission.
TERMINATION AND CHANGES:
You may terminate this
Agreement, by written notice, as to future advances at any time.
We can terminate this Agreement at any time subject to such notice
as may be required by applicable law. Termination by either party
shall not affect your obligation to repay any payments made for
your Account resulting from use of the Card as well as FINANCE
CHARGES and other related charges. We may change the terms
of this Agreement, including the periodic rate, at any time subject to
such notice as may be required by applicable law. If you use your
Card or Account to make a purchase or cash advance or balance
transfer after having been given notice of a change in terms, you
agree that the existing balance in your Account at the time of that use
will be subject to the new terms, as shall subsequent uses.
SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS
YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE
REPAYMENT OF CREDIT EXTENSIONS MADE UNDER THIS
AGREEMENT. THE GRANTING OF THIS SECURITY INTEREST IS
A CONDITION FOR THE ISSUANCE OF ANY CARD WHICH YOU
MAY USE, DIRECTLY OR INDIRECTLY, TO OBTAIN EXTENSIONS
OF CREDIT UNDER THIS AGREEMENT.

Shares and deposits in an Individual Retirement Account or
any other account that would lose special tax treatment under
state or federal law if given as security are not subject to the
security interest you are giving. Collateral securing other loans
with us may also secure payments for your Account under this
Agreement.
DEFAULT: You will be in default: (1) if you fail to make any payment
on time; (2) if you fail to keep any promises you have made under
this or any other agreement with us; (3) if you are the subject of
an order of relief under Title 11 of the U.S. Code (Bankruptcy); (4) if
anyone tries, by legal process, to take any of your money maintained
with us; (5) if you have given us false or inaccurate information in
obtaining your Card; or (6) if we reasonably believe that you are
unable or unwilling to repay your obligations to us.
ACCELERATION: If you are in default, without notice to you we may
accelerate your debt and call any amounts you owe immediately
due and payable, plus FINANCE CHARGES which shall continue to
accrue until the entire amount is paid. You expressly waive any right
to notice of our intention to accelerate and notice that your debt has
been accelerated.
NOTIFICATION ADDRESS FOR INFORMATION REPORTED TO
CONSUMER REPORTING AGENCIES: We may report the status
and payment history of your Account to credit reporting agencies
each month. If you believe that the information we have reported is
inaccurate or incomplete, please notify us in writing at the address
shown above in this Agreement. Please include your name, address,
home telephone number and Account number.
RECEIPT OF AND AGREEMENT TO TERMS AND CONDITIONS OF
AGREEMENT: By using the Card, you agree to all the terms and
conditions and promise to perform all the obligations, requirements,
and duties contained in this Agreement, and you acknowledge receipt
of a copy of this Agreement.
CREDIT INVESTIGATION: In conjunction with your application
for credit and, if approved, maintenance of your Account, you agree
that we have the right to investigate your credit and employment
history, to verify your credit references, to request and use credit
reports, and to report the way you pay your Account to credit bureaus
and other interested parties.
ADDITIONAL PROVISIONS: Each provision of this Agreement must
be considered part of the total Agreement and cannot in any way
be severed from it. However, if any provision of this Agreement is
finally determined to be void or unenforceable under any law, rule, or
regulation, all other provisions of this Agreement will remain valid and
enforceable. You understand that this Agreement is performable in the
county and state of the credit union shown above in this Agreement, and
the validity, construction, and enforcement of this Agreement shall be
governed by applicable federal law and the laws of the state in which the
credit union shown above is primarily located. We do not warrant any
merchandise or services purchased by you with the Card. All
purchases and cash advances are extended at the option of the
merchant or cash-advancing financial institution and we are not
responsible for the refusal of any merchant or financial institution
to honor your Card. The Card remains our property at all times,
and you agree to immediately surrender the Card upon demand.
You agree to pay all reasonable costs of collection, including
court costs and attorney’s fees, and any costs incurred in the
recovery of the Card. We can accept late payments or partial
payments, or checks or money orders marked “payment in full”
without losing any of our rights under this Agreement. We can
also delay enforcing any of our rights under this Agreement

without losing them. You expressly waive presentment for payment,
demand, protest, and notice of protest and dishonor of same.
You agree to give us prompt notice of any change in your name,
mailing address, telephone number or place of employment.
You may not use your Card for any illegal transaction. You agree
that we may decline to process any transaction which we believe
in good faith to be for an illegal purpose. You agree that we will
not be liable for declining to process any such transaction. If we
do process any transaction which ultimately is determined to have
been for an illegal purpose, you agree that you will remain liable to
us under this agreement for any such transaction notwithstanding
its illegal nature. You agree that any illegal use of the Card will
be deemed an act of default under this Agreement. You further
agree to waive any right to take legal action against us for your
illegal use of the Card and to indemnify and hold us, and/or
MasterCard International, Incorporated harmless from and against
any lawsuits, other legal action, or liability that results directly or
indirectly from such illegal use.
If you effect a transaction with your MasterCard in a currency
other than U.S. dollars, MasterCard International will convert the
charge into a U.S. dollar amount. MasterCard International will use
its currency conversion procedure, which is disclosed to institutions
that issue MasterCard cards. Currently the currency conversion
rate used by MasterCard International to determine the transaction
amount in U.S. dollars for such transactions is generally either
a government mandated rate or a wholesale rate determined
by MasterCard International for the processing cycle in which
the transaction is processed, increased by an adjustment factor
established from time to time by MasterCard International. The
currency conversion rate used by MasterCard International on
the processing date may differ from the rate that would have been
used on the purchase date or cardholder statement posting date.
WHAT TO DO IF THERE IS AN ERROR ON YOUR STATEMENT
NOTICE OF YOUR BILLING RIGHTS –
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and
our responsibilities under the Fair Credit Billing Act.
Notify Us in Case of Errors or Questions About Your
Statement. If you think your statement is wrong or if you need
more information about a transaction on your statement, write us
on a separate sheet at the address listed on your statement. Write
to us as soon as possible. We must hear from you no later than
60 days after we sent you the first statement on which the error or
problem appeared. You can telephone us, but doing so will not
preserve your rights.
In your letter, give us the following information: (1) Your name and
Account number. (2) The dollar amount of the suspected error. (3)
Describe the error and explain, if you can, why you believe there
is an error. If you need more information, describe the item you
are not sure about.
If you have authorized us to pay your credit card bill automatically
from your savings or checking account, you can stop the payment
on any amount you think is wrong. To stop the payment, your letter
must reach us 3 business days before the automatic payment is
scheduled to occur.

